                               Report Template Update = 04-30-05_rev.13




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  A COMPARISON OF AVERAGE 

   SALES PRICES TO WIDELY 

  AVAILABLE MARKET PRICES: 

    FOURTH QUARTER 2005 





                    Daniel R. Levinson

                     Inspector General 


                       June 2006 

                     OEI-03-05-00430

                                                           Report Template Update = 04-30-05_rev.13




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help to reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   E X E C U T I V E                                    S U M M A R Y                                      



                  OBJECTIVE
                  To determine whether the volume-weighted average sales prices (ASP)
                  for a select group of Medicare Part B prescription drugs exceed their
                  widely available market prices by at least 5 percent.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) established a new prescription drug benefit available to
                  all Medicare beneficiaries under Medicare Part D. However, a limited
                  number of outpatient prescription drugs are still covered under
                  Medicare Part B. These include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.

                  Expenditures for Part B drugs totaled more than $9 billion in calendar
                  year 2005. Although Medicare covers more than 500 outpatient
                  prescription procedure codes, the majority of spending for Part B drugs
                  is concentrated on a relatively small subset of those codes.

                  Medicare’s reimbursement amount for covered outpatient drugs is
                  generally equal to 106 percent of the volume-weighted ASP. The
                  Centers for Medicare & Medicaid Services (CMS) uses ASP information
                  submitted by manufacturers for each drug to calculate a volume-
                  weighted ASP for each covered procedure code. The MMA defines ASP
                  as a manufacturer’s sales of a drug to all nonexempt purchasers in the
                  United States in a calendar quarter divided by the total number of units
                  of the drug sold by the manufacturer in that same quarter. The ASP is
                  net of any price concessions such as volume, prompt pay, and cash
                  discounts; free goods contingent on purchase requirements;
                  chargebacks; and rebates other than those paid under the Medicaid
                  drug rebate program.

                  Sections 1847A(d)(1) and 1847A(d)(2)(A) of the Social Security Act (the
                  Act) mandate that the Office of Inspector General (OIG) conduct surveys
                  to determine widely available market prices and compare ASPs with
                  these widely available market prices. Section 1847A(d)(5)(A) defines
                  widely available market price to be the price that a prudent physician or
                  supplier would pay for the drug, net of any routinely available price
                  concessions. Pursuant to Section 1847A(d)(3)(C), if OIG determines
                  that the ASP for a drug exceeds the widely available market prices by

OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                             i
                                                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E                         S U        M M A R Y


                   5 percent and so informs the Secretary of the Department of Health and
                   Human Services, the Secretary shall substitute the payment amount for
                   that drug with the lesser of the widely available market price, or
                   103 percent of the average manufacturer price (AMP) as reported for
                   Medicaid drug rebate purposes.

                   We selected a sample of procedure codes based on the results of a
                   September 2005 OIG report that calculated physicians’ estimated
                   purchase prices for oncology drugs. For the nine procedure codes in our
                   sample, we compared second-quarter 2005 volume-weighted ASPs (the
                   basis of fourth-quarter 2005 Medicare reimbursement amounts) to
                   fourth-quarter 2005 widely available market prices, and identified codes
                   for which the ASP exceeded the widely available market price by at
                   least 5 percent. We estimated the amount that Medicare would save by
                   lowering reimbursement to the widely available market price for any
                   procedure codes that met or exceeded the 5-percent threshold.


                   FINDINGS
                   For 5 of the 9 procedure codes under review, the volume-weighted
                   ASP exceeded the widely available market price by at least
                   5 percent. Five of the nine procedure codes included in our study met
                   or surpassed the 5-percent threshold defined by the Act. For these 5
                   codes, the difference between the ASPs and the widely available market
                   prices calculated by OIG ranged from 17 to 185 percent. We estimate
                   that Medicare expenditures would be reduced by as much as $67 million
                   in 2006 if reimbursement amounts were lowered to the widely available
                   market price for these 5 codes.
                   The widely available market prices for these drugs may be even lower
                   than the amounts we found, as all five specialty distributors offered
                   price discounts to physician customers that were not reflected in our
                   calculation. We did not take discounts into account when determining
                   widely available market prices because these discounts were not
                   routinely available to all physician customers.

                   The most common type of price discount offered to physician customers
                   was a percentage off the list or net price when a customer pays his/her
                   balance within a certain time period (i.e., a “prompt pay” discount). In
                   general, the more quickly payment is made, the higher the discount the
                   customer receives. Three of the five companies that responded to our
                   request offered this type of incentive, with percentage discounts ranging
                   from 1 to 3 percent, depending on the time of payment. Anywhere from

 OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            ii
                                                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E                         S U        M M A R Y


                   10 to 90 percent of physician customers of these companies take
                   advantage of prompt pay discounts. A fourth company offered a prompt
                   pay discount for only one of the drugs it sold. This discount ranged from
                   1 to 4 percent.

                   In addition, companies also offered other types of discounts to group
                   purchasing organizations and members of State oncology associations.


                   SUMMARY
                   Section 1847A(d)(2)(A) of the Act mandates that OIG perform
                   comparisons between ASPs and widely available market prices to
                   identify drugs for which ASP exceeds widely available market prices by
                   5 percent. This study is the first of these comparisons. Based on our
                   analysis, we have identified five procedure codes that met the criterion
                   for a price adjustment. Pursuant to the Act, the Secretary shall reduce
                   the reimbursement for these 5 codes to the lesser of the widely available
                   market price, or 103 percent of the AMP. We estimate that lowering the
                   reimbursement to the widely available market price would reduce
                   Medicare expenditures by as much as $67 million in 2006. If
                   103 percent of AMP is lower than the widely available market price for
                   any of these 5 codes, then Medicare expenditures would be reduced even
                   further.
                   Agency Comments and Office of Inspector General Response
                   CMS shares OIG’s concern that Medicare pay appropriately for Part B
                   drugs, and states that our findings are helpful to its ongoing efforts to
                   enhance implementation of the ASP methodology. However, CMS notes
                   that because OIG’s analysis focuses on fourth-quarter 2005
                   reimbursement amounts, the report does not reflect the downward
                   trend in drug prices and Medicare reimbursement that has occurred for
                   some drugs since our analysis. CMS believes that Medicare savings
                   would be substantially less than the amount estimated in the report.

                   Based on CMS’s comments, it is unclear what, if any, specific steps the
                   agency plans to take to further reduce Medicare reimbursement
                   amounts for the drugs identified in this report. OIG recognizes the fact
                   that the ASPs and the resulting Medicare reimbursement amounts for
                   some of the drugs in our review have decreased since our analysis was
                   completed. However, even with these recent reductions, widely
                   available market prices for 4 out of the 5 procedure codes still meet the
                   5-percent threshold when compared to fourth-quarter 2005 ASPs (the
                   basis of second-quarter 2006 reimbursement amounts).

 OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           iii
                                                                        Report Template Update = 04-30-05_rev.13




Δ   T A B L E           O F           C O N T E N T S                                




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Comparing Average Sales Price to Widely Available Market
                    Price. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 13 



         A P P E N D I X A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                                                                                               Report Template Update = 04-30-05_rev.13




Δ   I N T R O D U C T I O N                                                   



                  OBJECTIVE
                  To determine whether the volume-weighted average sales prices (ASP)
                  for a select group of Medicare Part B prescription drugs exceed their
                  widely available market prices by at least 5 percent.


                  BACKGROUND
                  Medicare Coverage of Prescription Drugs
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) established a new prescription drug benefit available to
                  all Medicare beneficiaries under Medicare Part D. However, a limited
                  number of outpatient prescription drugs are still covered under
                  Medicare Part B. These include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.

                  Part B claims for most prescription drugs are processed and paid for by
                  carriers. Claims for drugs that are used with medical equipment are
                  typically processed and paid by one of four durable medical equipment
                  regional carriers (DMERCs). To obtain Medicare reimbursement for
                  covered outpatient prescription drugs, physicians and suppliers submit
                  claims using procedure codes. Procedure codes define the type of drug
                  and, in most cases, a dosage amount. In contrast, manufacturers and
                  distributors identify prescription drugs using an 11-digit National Drug
                  Code (NDC) that indicates the manufacturer of the drug, the product
                  dosage form, and the package size. One or more NDCs may meet the
                  definition of a particular procedure code.
                  Medicare Part B Payments for Prescription Drugs
                  Expenditures for Part B drugs totaled over $9 billion in calendar year
                  2005. Although Medicare covers more than 500 outpatient prescription
                  drug procedure codes, the majority of spending for Part B drugs is
                  concentrated on a relatively small subset of those codes.
                  Medicare Drug Reimbursement Methodologies
                  Reimbursement methodologies prior to and during 2004. Prior to 2004,
                  Medicare Part B reimbursed covered drugs based on the lower of either
                  the billed amount or 95 percent of the average wholesale price (AWP) as
                  published in national pricing compendia such as the “Red Book.”



OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            1
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    However, numerous reports by the Office of Inspector General (OIG)1
                    and the Government Accountability Office (GAO)2 indicated that
                    Medicare reimbursement amounts were significantly higher than the
                    prices that drug manufacturers, wholesalers, and other similar entities
                    actually charge the physicians and suppliers who purchase these drugs.
                    The MMA made significant changes to the way Medicare Part B
                    reimburses for covered drugs. The MMA specified that the
                    reimbursement rate for most outpatient prescription drugs furnished on
                    or after January 1, 2004, must be set at 85 percent of the AWP until a
                    new methodology could be implemented in 2005.
                    Current reimbursement methodology. In 2005, Medicare began paying for
                    most Part B drugs using an entirely new methodology based on the ASP
                    rather than the AWP. The MMA defines ASP as a manufacturer’s sales
                    of a drug to all nonexempt purchasers in the United States in a calendar
                    quarter divided by the total number of units of the drug sold by the
                    manufacturer in that same quarter. The ASP is net of any price
                    concessions such as volume, prompt pay, and cash discounts; free goods
                    contingent on purchase requirements; chargebacks; and rebates other
                    than those paid under the Medicaid drug rebate program. Sales that
                    are nominal in amount are exempted from the ASP calculation, as are
                    sales excluded from the determination of “best price” for Medicaid drug
                    rebate purposes, which is the lowest price paid by any purchaser with
                    certain exceptions.

                    Manufacturers must provide the Centers for Medicare & Medicaid
                    Services (CMS) with the ASP and volume of sales for each NDC on a
                    quarterly basis, with submissions due 30 days after the close of the
                    quarter. Manufacturers were required to submit their initial quarterly
                    ASP data by April 30, 2004. If ASPs were not available during the
                    initial quarter, manufacturers were required to report the wholesale
                    acquisition cost (WAC) of the drug, which is defined in section
                    1847A(c)(6) of the Social Security Act (the Act) to be the manufacturer’s
                    list price to wholesalers or direct purchasers in the United States,
                    excluding price concessions as reported in publications of pricing data.



                       1 For example, see “Excessive Medicare Reimbursement for Ipratropium Bromide,”

                    OEI-03-01-00411, and “Medicare Reimbursement of Prescription Drugs,” OEI-03-00-00310.
                       2 For example, see “Medicare: Payments for Covered Outpatient Exceed Providers’

                    Costs,” GAO-01-1118, and “Medicare Physician Fee Schedule: Practice Expense Payments
                    to Oncologists Indicate Need for Overall Refinements,” GAO-02-53.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            2
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    Given that Medicare reimbursement for outpatient drugs is based on
                    procedure codes rather than NDCs, and that more than one NDC may
                    meet the definition of a particular procedure code, CMS has developed a
                    file that crosswalks manufacturers’ NDCs to procedure codes. CMS
                    uses this crosswalk information to help calculate volume-weighted ASPs
                    for covered procedure codes.

                    As set forth in Section 1847A(b) of the Act, as of January 1, 2005,
                    Medicare’s allowance for covered outpatient drugs became equal to
                    106 percent of one of the following:
                    o If a drug is available only in brand form (i.e., is a single-source
                        drug), the lesser of either the volume-weighted ASPs for that drug
                        or the volume-weighted WACs for that drug; or
                    o If a drug is available in both brand and generic forms (i.e., is a
                        multiple-source drug), the volume-weighted average of the ASPs
                        reported for that drug.

                    Second-quarter 2005 ASP submissions from manufacturers serve as
                    the basis for fourth-quarter 2005 Medicare allowances for most
                    covered procedure codes.
                    Collection of Widely Available Market Prices
                    Sections 1847A(d)(1) and 1847A(d)(2)(A) of the Act mandate that OIG
                    conduct surveys to determine widely available market prices and
                    compare ASPs with these widely available market prices. Section
                    1847A(d)(5)(A) of the Act defines widely available market price to be the
                    price that a prudent physician or supplier would pay for the drug, net of
                    any routinely available price concessions. Pursuant to section
                    1847A(d)(5)(b) of the Act, OIG should consider information from one or
                    more of the following sources:
                    o Manufacturers

                    o Wholesalers

                    o Distributors

                    o Physician supply houses

                    o Specialty pharmacies

                    o Group purchasing arrangements

                    o Surveys of physicians

                    o Surveys of suppliers


 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            3
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    o Insurers

                    o Private health plans

                    If OIG determines that the ASP for a drug exceeds widely available
                    market prices by 5 percent, OIG shall inform the Secretary of the
                    Department of Health and Human Services (Secretary). Under Section
                    1847A(d)(3)(C):

                               . . . the Secretary shall, effective as of the next quarter, substitute
                               for the amount of payment otherwise determined under this
                               section for such drug or biological the lesser of—
                               (i) the widely available market price for the drug or biological (if
                               any); or
                               (ii) 103 percent of the average manufacturer price.3
                    Related Work by the Office of Inspector General
                    The MMA mandated that OIG conduct a study on the ability of
                    physician practices of different sizes in the specialties of hematology,
                    hematology/oncology, and medical oncology to obtain drugs and
                    biologicals at 106 percent of the ASP. OIG completed this study in
                    September 2005.4 OIG’s review focused on purchases made by
                    physician practices in these three specialties during the first quarter of
                    2005 (January through March). For the analysis, OIG selected
                    40 procedure codes that represented more than 94 percent of the
                    $4.5 billion in total 2004 Medicare expenditures for drugs administered
                    by physician practices in the 3 mandated specialties. These 40 codes
                    accounted for 63 percent of the $9.4 billion in overall Part B spending
                    for prescription drugs in 2004.
                    OIG requested copies of all drug purchase invoices for the sampled
                    practice/months5 from the sampled physician practices. OIG calculated


                       3 For covered outpatient drugs to be eligible for reimbursement by Medicaid, sections
                    1927(a)(1) and 1927(b)(2) of the Act mandate that drug manufacturers enter into rebate
                    agreements with the Secretary and pay quarterly rebates to State Medicaid agencies.
                    Under section 1927(b)(3) and the rebate agreements, manufacturers must provide the
                    Secretary with average manufacturer prices (AMP) for each of their NDCs on a quarterly
                    basis. As defined in section 1927(k)(1) of the Act, the AMP is the average unit price paid to
                    the manufacturer for the drug in the United States by wholesalers for drugs distributed to
                    the retail pharmacy class of trade, minus customary prompt pay discounts.
                      4 “Adequacy of Medicare Part B Drug Reimbursement to Physician Practices for the
                    Treatment of Cancer Patients,” A-06-05-00024.
                      5 A practice/month represents a month in the first quarter of 2005 in which a physician
                    practice could have purchased a drug.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            4
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    the average price for each practice/month (net of rebates and other price
                    concessions, not including prompt-pay discounts) for drugs associated
                    with each procedure code and used the calculated average prices for the
                    estimates. OIG then compared these average price estimates with
                    reimbursement amounts published by CMS on May 12, 2005, for the
                    first quarter of 2005.

                    OIG concluded that physician practices in the three specialties could
                    generally purchase drugs for the treatment of cancer patients at less
                    than the MMA-established reimbursement rates, i.e., 106 percent of the
                    ASP. Overall, the report found that the average prices paid for drugs
                    associated with 35 of the 396 procedure codes were less than the
                    Medicare reimbursement amounts based on ASP. OIG also estimated
                    that for 35 of the 39 codes, physician practices could purchase drugs at
                    less than the reimbursement amounts for at least half of the
                    practice/months.




                       6 OIG did not receive enough responses for one code to reliably estimate the average

                    purchase price or the number of practice/months for which physician practices were able to
                    purchase drugs at less than the reimbursement amount.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            5
                                                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D              U C T             I O N 





                           METHODOLOGY
                           We reviewed the estimated purchase prices for the 40 procedure codes
                           identified in the September 2005 OIG report described earlier in this
                           report. Additional analysis performed by our office found that second-
                           quarter 2005 volume-weighted ASPs exceeded the estimated purchase
                           prices physicians paid for the drugs included in the study by at least
                           5 percent for 9 of the 40 procedure codes. These nine procedure codes,
                           listed in Table 1 below, form the sample of this current study. Table 1
                           also shows the estimated purchase prices in the first quarter of 2005,
                           the second-quarter 2005 volume-weighted ASPs, and the percentage
                           difference between the two amounts for each of the nine procedure
                           codes. We used second-quarter 2005 volume-weighted ASPs in this
                           comparison to account for any changes in the volume-weighted ASPs
                           after the publication of the earlier OIG report.

     Table 1. Nine Procedure Codes With Volume-Weighted ASPs That Exceeded Estimated
     Purchase Prices to Physicians by at Least 5 Percent

     Procedure Code           Short Description                                                 Estimated            Second-Quarter   Percentage
                                                                                           Purchase Price*               2005 ASP**    Difference
     J1100                      Dexamethasone sodium phosphate                                       $0.05                   $0.103       106.4%
     J9045                                           Carboplatin                                    $16.24                  $33.259       104.8%
     J1260                                  Dolasetron mesylate                                      $4.04                   $6.147         52.2%
     J9390                                   Vinorelbine tartrate                                   $35.71                  $40.410         13.2%
     J9060                                               Cisplatin                                   $2.05                   $2.239          9.2%
     J0640                                  Leucovorine calcium                                      $1.16                   $1.248          7.6%
     J1441                                     Filgrastim G-CSF                                   $245.46                  $263.743          7.4%
     J9370                                     Vincristine sulfate                                   $3.18                   $3.399          6.9%
     J1626                                      Granisetron HCl                                      $6.39                   $6.735          5.4%
     *Source: Office of Inspector General, Office of Audit Services, First Quarter 2005.

     **Source: CMS’s crosswalk file updated December 8, 2005.

     Note: All figures in the table have been rounded.




                           Average Sales Prices
                           We contacted CMS to obtain volume-weighted ASPs for the nine
                           procedure codes for the second quarter of 2005. These ASPs serve as
                           the basis of fourth-quarter 2005 reimbursement amounts. In addition,
                           we obtained the file that CMS uses to crosswalk NDCs to their
                           corresponding procedure codes. Both the volume-weighted ASPs and
                           the crosswalk file were updated as of December 8, 2005. As mentioned


 OEI-03-05-00430           A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                             6
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    previously, Medicare does not base reimbursement for covered drugs on
                    NDCs; instead, it uses procedure codes. Therefore, CMS uses ASP
                    information submitted by manufacturers for each NDC to calculate a
                    volume-weighted ASP for each covered procedure code. When
                    calculating these volume-weighted ASPs, CMS only includes NDCs with
                    ASP submissions that are deemed valid.

                    To calculate the volume-weighted ASPs for procedure codes, CMS uses
                    an equation that involves the following factors: the ASP for the NDC as
                    reported by the manufacturer, the volume of sales for the NDC as
                    reported by the manufacturer, and the number of billing units in the
                    NDC as determined by CMS. The amount of the drug contained in an
                    NDC may differ from the amount of the drug specified by the procedure
                    code that providers use to bill Medicare. Therefore, the number of
                    billing units in an NDC describes the number of procedure code units
                    that are in that NDC. CMS calculates the number of billing units in
                    each NDC when developing its crosswalk files. We did not
                    systematically verify the accuracy of the billing unit information.7
                    Widely Available Market Prices
                    Although the Act names numerous entities from which OIG may obtain
                    data, we believed that it would be most effective to collect pricing
                    information from the sources from which physicians were most likely to
                    have purchased the drugs under review. Based on information from
                    the drug industry and our own analysis, we identified five specialty
                    distributors that provide a majority of the oncology pharmaceuticals
                    purchased by oncology practices: Oncology Therapeutic Network,
                    Oncology Supply, Cardinal Specialty Distribution, Priority Healthcare,
                    and Florida Infusion. We contacted each of these distributors by mail to
                    request fourth-quarter 2005 prices for any NDCs that correspond to the
                    nine procedure codes in our study. We asked the companies to include
                    all prices charged to different types of customers (e.g., physicians,
                    hospitals, pharmacies, etc.). In addition, for each of the drugs, we asked


                       7 In a recent OIG report entitled “Calculation of Volume-Weighted Average Sales Price

                    for Medicare Part B Prescription Drugs” (OEI-03-05-00310), OIG stated that CMS’s
                    calculation of volume-weighted ASP is incorrect because CMS does not use billing units
                    consistently throughout its equation. As a result, many procedure codes have
                    reimbursement amounts that are higher or lower than the amounts that would have been
                    calculated if billing units were used consistently. In the above-referenced report, OIG
                    proposed an alternative methodology that we believe uses billing units correctly. However,
                    for the purposes of this study we used the volume-weighted ASPs that CMS calculates using
                    its equation.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            7
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    for a description of any types of discounts they offer to customers, the
                    amounts of those discounts, and the percentage of customers that
                    receive those discounts.
                    All five companies responded to our request. Companies may have had
                    multiple sales prices for each NDC. Two companies submitted an
                    average of their selling prices for each NDC, weighted by the number of
                    units sold at each price. Another company provided all of its prices for
                    each NDC and the number of units sold at each price, allowing us to
                    calculate our own weighted average. The final two companies provided
                    only their list prices for each NDC. For these two companies, to be
                    conservative, we used the highest list prices for each NDC in our
                    analysis.

                    We only included sales prices to physicians in our analysis. Although
                    we asked the specialty distributors to provide information regarding
                    discounts offered to physicians, we did not take these discounts into
                    account when analyzing prices because these discounts were not
                    routinely available to all physician customers.

                    To ensure that the market prices would be comparable to the volume-
                    weighted ASP for the procedure code, it was necessary to divide the
                    price per NDC by the number of billing units in that NDC as listed on
                    CMS’s crosswalk file. This price represented a price for the amount of
                    drug defined by the procedure code. If a company submitted prices for
                    NDCs that were not included on CMS’s crosswalk file, we calculated the
                    billing units by using data from manufacturers’ Web sites. Our final
                    step was to calculate a median price for each of the nine procedure
                    codes. For the purposes of this report, widely available market prices
                    refer to the median market price we calculated for each of the nine
                    procedure codes.8
                    Comparing Widely Available Market Prices to Average Sales Prices
                    We determined the percentage difference between the second-quarter
                    2005 volume-weighted ASPs and the fourth-quarter 2005 widely
                    available market prices for each of the nine procedure codes. We
                    determined the percentage difference in prices by subtracting the widely
                    available market price from the volume-weighted ASP and then
                    dividing this number by the widely available market price. We


                      8 Given the available data, we believed that the median was the most appropriate
                    measure of the amount a “prudent physician” would pay for the drug.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            8
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T            I O N


                    identified any procedure codes for which the volume-weighted ASP
                    exceeded the widely available market price by 5 percent.
                    Calculating Potential Medicare Savings
                    For the procedure codes that met the 5-percent threshold, we estimated
                    the monetary impact of lowering the reimbursement amount to the
                    widely available market price as found in this report. We subtracted
                    the widely available market price from the fourth-quarter 2005
                    reimbursement amount for the procedure code (equal to 106 percent of
                    the volume-weighted ASP). We then multiplied the difference by the
                    number of services that were allowed by Medicare for each procedure
                    code in 2005, as reported in CMS’s Part B Extract and Summary
                    System9. This estimate assumes that 2006 utilization for each
                    procedure code will be similar to 2005 utilization and the volume-
                    weighted ASP for each procedure code will remain consistent
                    throughout 2006.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                      9 At the time of extraction, CMS’s Part B Extract and Summary System data were
                    90 percent complete for procedure codes processed by local carriers and DMERCs.



 OEI-03-05-00430    A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            9
                                                                                                                 Report Template Update = 04-30-05_rev.13




   F     I N D I N G                 S
 Δ           F I N D I N G                                 




For 5 of the 9 procedure codes under review, the                         Five of the nine procedure codes
      volume-weighted ASP exceeded the widely                            included in our study met or
      available market price by at least 5 percent                       surpassed the 5-percent threshold
                                                                         specified in Section 1847A(d)(3)(B)
                                                                         of the Act.10 Pursuant to Section
                                    1847A(d)(3)(C), OIG shall notify the Secretary if the ASP for a
                                    particular drug exceeds the widely available market price by a
                                    threshold of 5 percent. The difference between ASP and widely
                                    available market price calculated by OIG for these 5 procedure codes
                                    ranged from 17 to 185 percent. A list of these five procedure codes is
                                    presented in the table below.

       Table 2. Five Procedure Codes With Volume-Weighted ASPs That Exceeded Widely Available Market
       Prices by at Least 5 Percent

       Procedure Code                                           Short Description                  Widely Available           Second-Quarter   Percentage
                                                                                                      Market Price*               2005 ASP**    Difference
       J9045                                              Carboplatin                                      $11.667                   $33.259       185.1%
       J1100                         Dexamethasone sodium phosphate                                         $0.062                    $0.103         65.2%
       J1260                                     Dolasetron mesylate                                        $3.926                    $6.147         56.6%
       J9390                                      Vinorelbine tartrate                                     $31.000                   $40.410         30.4%
       J1626                                         Granisetron HCl                                        $5.738                    $6.735         17.4%
       *Source: Office of Inspector General, Office of Evaluation and Inspections, fourth quarter 2005.

       **Source: CMS’s crosswalk file updated December 8, 2005.

       Note: All figures in the table have been rounded.




                                    The widely available market prices for these drugs may be even lower
                                    than the prices we found, as all five specialty distributors offered price
                                    discounts to physician customers that were not reflected in our
                                    calculation. We did not take discounts into account when determining
                                    widely available market prices because these discounts were not
                                    routinely available to all physician customers.

                                    The most common type of price discount offered to physician customers
                                    was a percentage off the list or net price when a customer pays his/her
                                    balance within a certain time period (i.e., a “prompt pay” discount).

                                       10 For this report we compared fourth-quarter 2005 market prices to second-quarter 2005
                                    volume-weighted ASPs (the basis of fourth-quarter 2005 reimbursement amounts). The
                                    same 5 procedure codes met the 5-percent threshold when we compared widely available
                                    market prices to third-quarter 2005 volume-weighted ASPs (the basis of first-quarter 2006
                                    reimbursement amounts).



        OEI-03-05-00430             A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                            10
                                                                                                   Report Template Update = 04-30-05_rev.13




F   I N D I N G 



                      Three of the five companies that responded to our request offered this
                      type of incentive, with discounts ranging from 1 to 3 percent depending
                      on the time of payment. According to the companies, anywhere from 10
                      to 90 percent of physician customers take advantage of prompt pay
                      discounts. A fourth company offered a prompt pay discount for only one
                      of the drugs it sold. This discount ranged from 1 to 4 percent.

                      In addition to prompt pay discounts, one company offered a 2-percent
                      discount for one drug to all physician customers at the time of purchase.
                      This company also offers a “retrospective rebate” to group purchasing
                      organizations (GPO). These rebates are paid retrospectively,
                      approximately 30 days after the close of each quarter. However, the
                      company is not aware of what portion, if any, of the rebates is passed on
                      to individual physicians. Depending on the drug, these rebates ranged
                      from 0.25 to 7.5 percent.

                      Another company offered discounts to members of a GPO and to
                      members of the State oncology association, which functions like a GPO.
                      The discounts offered to members of the GPO and State oncology
                      association were 2 and 0.25 percent, respectively.
                      Lowering reimbursement amounts for these five codes to the widely
                      available market price would reduce Medicare expenditures by $67 million in
                      2006
                      Section 1847A(d)(3)(C) of the Act states that OIG shall inform the
                      Secretary if OIG finds that the ASP for a drug or biological exceeds such
                      widely available market price for drugs by 5 percent. If this criterion is
                      met, the lesser of 103 percent of the AMP for the drug or the widely
                      available market price for the drug shall be substituted for the ASP-
                      based payment amount. In this study, we identified 5 codes that met or
                      exceeded the 5-percent threshold specified in the Act. Based on the
                      number of allowed services in 2005, we estimate that Medicare
                      expenditures would be reduced by $67 million in 2006 if reimbursement
                      amounts for these five codes were lowered to the widely available
                      market price.11 If 103 percent of AMP is lower than the widely available
                      market price for any of these 5 codes, then Medicare expenditures would
                      be reduced even further.12



                         11 Medicare expenditures for these five codes totaled $315 million in 2005.
                         12 Data needed to calculate fourth-quarter 2005 AMPs for the 5 codes were unavailable
                      at the time of analysis.



    OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           11
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   S U M M A R Y                             





                  Section 1847A(d)(2)(A) of the Act mandates that OIG perform
                  comparisons between ASP and widely available market prices to
                  identify drugs for which ASP exceeds widely available market prices by
                  5 percent. This study is the first of these comparisons. Based on our
                  analysis, we have identified five procedure codes that met the criteria
                  for a price adjustment. Pursuant to the Act, the Secretary shall reduce
                  the reimbursement for these 5 codes to the lesser of the widely available
                  market price or 103 percent of the AMP. We estimate that lowering the
                  reimbursement to the widely available market price would reduce
                  Medicare expenditures by as much as $67 million in 2006. If
                  103 percent of AMP is lower than the widely available market price for
                  any of these 5 codes, then Medicare expenditures would be reduced even
                  further.


                  AGENCY COMMENTS
                  CMS shares OIG’s concern that Medicare pay appropriately for Part B
                  drugs, and states that our findings are helpful to its ongoing efforts to
                  enhance implementation of the ASP methodology. However, CMS notes
                  that because OIG’s analysis focuses on fourth-quarter 2005
                  reimbursement amounts, the report does not reflect the downward
                  trend in drug prices and Medicare reimbursement that has occurred for
                  some drugs since our analysis.

                  According to CMS, although drug prices appear to have stabilized over
                  the last few quarters, prices for some drugs (particularly generics)
                  continue to decline. CMS specifically cites carboplatin (the drug for
                  which OIG found the largest discrepancy between ASP and widely
                  available market price) as a prime example of this downward trend.
                  CMS concludes that based on the price reductions for carboplatin and
                  other drugs since the time of our analysis, Medicare savings would be
                  substantially less than the amount estimated in the report.

                  The full text of CMS’s comments can be found in Appendix A.




OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           12
                                                                                                Report Template Update = 04-30-05_rev.13




S U M M A R Y



                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   OIG acknowledges CMS’s efforts in reducing Medicare reimbursement
                   for Part B drugs. However, based on CMS’s comments, it is unclear
                   what, if any, specific steps the agency plans to take to further reduce
                   Medicare reimbursement amounts for the drugs identified in this
                   report.
                   We recognize that the ASPs and the resulting Medicare reimbursement
                   amounts for some of the drugs in our review have decreased since our
                   analysis was completed. However, even with these recent reductions,
                   widely available market prices for 4 out of the 5 procedure codes still
                   meet the 5-percent threshold when compared to fourth-quarter 2005
                   ASPs (the basis of second-quarter 2006 reimbursement amounts).
                   For example, CMS is correct that the ASP for carboplatin has declined
                   substantially since the time of our analyis, from $33.26 in the second
                   quarter of 2005 to $13.08 in the fourth quarter of that year. Despite
                   this signficant reduction, the ASP for carboplatin still exceeds the
                   widely available market price by 12 percent. Therefore, while the
                   potential savings caused by any price reductions for carboplatin and the
                   other drugs would now be lower than the amount calculated in our
                   report, four of the five drug products still meet the criteria specified in
                   MMA.




 OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           13
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   A P P E N D I X ~ A                                         





OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           14
                                                                                                   Report Template Update = 04-30-05_rev.13




A   P   P E N D       I X ~          A




    OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           15
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   A C K N O W L E D G M
                        E M
                          E N
                            E N
                              T S
                                T S                                                                         




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David Tawes, Director, Medicare and Medicaid
                  Prescription Drug Unit. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Tanaz Dutia, Project Leader
                  Linda Boone Abbott, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch




OEI-03-05-00430   A C O M PA R I S O N   OF   ASP   TO   W I D E LY AVA I L A B L E M A R K E T P R I C E                           16
